HHS/OIG, Audit - "Review of Subaward Costs Claimed by Boston
University on NIH Grant Number 5 U01 HL066582-04 and 3 U01 HL066582-04S1 From
August 1, 2003, Through July 31, 2005," (A-01-06-01500)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Subaward Costs
Claimed by Boston University on NIH Grant Number 5 U01 HL066582-04 and 3 U01
HL066582-04S1 From August 1, 2003, Through July 31, 2005," (A-01-06-01500)
September 28, 2006
Complete Text of Report is available in PDF format (270 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Boston University (the University) claimed subaward costs under a Harvard University grant from the National Institutes of Health in accordance with the terms and conditions of the subaward and applicable Federal regulations. From August 1, 2003, through July 31, 2005, the University claimed $11,234 in unallowable salary cost transfers and related fringe benefits and indirect costs that did not comply with Federal regulations and the terms of the subaward. In addition, the University did not submit its final invoice to the prime grantee within the specified time frame.
We recommended that the University: (1) comply with Federal and University requirements to ensure that cost transfers are properly authorized and documented, (2) establish controls to ensure that final invoices are submitted promptly, and (3) work with the prime grantor to resolve the $11,234 received from NIH for inappropriate cost transfers. In its response to our draft report, the University agreed with our procedural recommendations. However, the University maintained that all costs that it claimed under the subaward were reasonable, allocable, and allowable.